Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     THE ORPHAN DRUG ACT
     IMPLEMENTATION AND IMPACT




                        MAY 2001
                      OEI-09-00-00380
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's San Francisco regional office prepared this report under the direction of Paul A. Gottlober,
Regional Inspector General. Principal OEI staff included:

REGION                                               HEADQUARTERS

Cindy Lemesh, Project Leader                         Elise Stein, Director, Public Health and 

Camille I. Harper, Program Analyst                   Human Services

Thomas Purvis, Program Analyst                       Genevieve Nowolinski, Program Specialist

Christopher Tarbell, Program Analyst
Steven P. Zerebecki, Lead Analyst




 To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900.

          Reports are also available on the World Wide Web at our home page address:
                                http://www.dhhs.gov/progorg/oei
                       EXECUTIVE                      SUMMARY

PURPOSE

         The purpose of this inspection was to assess the implementation of the Orphan Drug Act of
         1983 and its impact on industry and patients.



BACKGROUND

         Congress passed the Orphan Drug Act of 1983 to stimulate the development of drugs for rare

         diseases. A rare disease is defined as a disease that affects fewer than 

         200,000 people in the United States. Prior to passage of this historic legislation, private

         industry had little incentive to invest money in the development of treatments for small patient

         populations, because the drugs were expected to be unprofitable. The law provides 7-year

         marketing exclusivity to sponsors of approved orphan products, a tax credit of 50 percent of

         the cost of conducting human clinical testing, and research grants for clinical testing of new

         therapies to treat orphan diseases. Exclusive marketing rights limit competition by preventing

         other companies from marketing the same version of the drug, unless they can prove clinical

         superiority.


         The Food and Drug Administration administers the Orphan Drug Act and reviews applications

         for orphan designations. The Office of Orphan Products Development awards designations

         and administers the small grants program. The Center for Drug Evaluation and Research and

         the Center for Biologics Evaluation and Research review applications for marketing approval.


         We reviewed FDA’s database that contains information on all designations and approvals from

         1983 to 2000. We interviewed regulatory affairs staff and other representatives from a

         purposeful sample of 36 biotechnology and pharmaceutical companies. We also interviewed

         representatives from 37 patient advocacy groups. We conducted a focus group with Food and

         Drug Administration staff and consulted with drug policy experts and representatives from trade

         groups. We also reviewed relevant literature.




FINDINGS

         The Orphan Drug Act’s incentives and the Office of Orphan Products Development’s
         clinical superiority criteria motivate drug companies to develop orphan products. Since
         Congress passed the Orphan Drug Act of 1983, the Food and Drug Administration has
         awarded more than 1,000 designations and approved more than 200 products.



The Orphan Drug Act - Implementation and Impact   1                            OEI-09-00-00380
         Advocates report that orphan products are usually accessible to patients. Orphan
         products are usually accessible, although they can be costly and in limited supply. Insurance
         typically pays for the treatments, and companies offer patient assistance programs to help
         patients obtain their products.

         The Office of Orphan Products Development provides a valuable service to both
         companies and patients. Companies report an excellent relationship with this office, which
         awards orphan product designations and disseminates public information about orphan
         products.

         Orphan products meet the legal prevalence limit, and most fall well below the threshold
         of 200,000 patients. Average patient population has climbed since 1983 but remains well
         below the legal limit.



CONCLUSION

         Based on our survey of patient groups and sponsors and our review of the FDA database on
         designations and approvals, we conclude that no regulatory or legislative changes are needed at
         this time. Although, in some instances, companies have questioned the Office of Orphan
         Products Development’s decisions, they generally praised the Orphan Drug Act and its
         implementation.




The Orphan Drug Act - Implementation and Impact   2                           OEI-09-00-00380
                           TABLE                          OF               CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Incentives and clinical superiority . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Access to orphan products . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Office of Orphan Products Development . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Legal prevalence limit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13





The Orphan Drug Act - Implementation and Impact                        3                                           OEI-09-00-00380
                                  INTRODUCTION

PURPOSE

         The purpose of this inspection was to assess the implementation of the Orphan Drug Act of
         1983 and its impact on industry and patients.



BACKGROUND

Provisions of the Orphan Drug Act

         Congress passed the Orphan Drug Act of 1983 to stimulate the development of drugs for rare
         diseases.1 Prior to passage of this historic legislation, private industry had little incentive to
         invest money in the development of treatments for small patient populations, because the drugs
         were expected to be unprofitable. The law provides three incentives: (1) 7-year market
         exclusivity to sponsors2 of approved orphan products, (2) a tax credit of 50 percent of the cost
         of conducting human clinical trials, and (3) Federal research grants for clinical testing of new
         therapies to treat and/or diagnose rare diseases. In 1997, Congress created an additional
         incentive when it granted companies developing orphan products an exemption from the usual
         drug application or “user” fees charged by the Food and Drug Administration (FDA). In fiscal
         year 2001, these fees will total almost $500,000. Companies also may be eligible for faster
         review of their applications for marketing approval if their products treat a life-threatening
         illness. Many orphan drugs treat a serious or life-threatening disease.

         Congress amended the Act in 1984, 1985, and 1988. The 1984 amendment defined a rare
         disease as a condition affecting fewer than 200,000 people in the United States. The threshold
         was an arbitrary ceiling based on the estimated prevalence of narcolepsy and multiple sclerosis.
         The 1985 amendment extended marketing exclusivity to patentable as well as unpatentable
         drugs, and the 1988 amendment required sponsors to apply for orphan designation before
         submitting an application for marketing approval.

         The FDA administers the Orphan Drug Act and reviews applications for orphan designations.
         Within FDA, the Office of Orphan Products Development awards designations and administers
         the small grants program, which is expected to total




         1
          The term “drug” refers to chemical entities and biological products used for the purpose of medical
therapy or diagnosis. We use the terms “drug” and “product” interchangeably in this report.
         2
          Since most sponsors of orphan products are pharmaceutical and biotechnology companies, we use the
terms “sponsor” and “company” interchangeably in this report.

The Orphan Drug Act - Implementation and Impact           4                                  OEI-09-00-00380
         $12.5 million in fiscal year 2001. The grants support clinical trials on the safety and
         effectiveness of products for rare diseases. The Center for Drug Evaluation and Research
         (CDER) and the Center for Biologics Evaluation and Research (CBER) review applications for
         marketing approval.

         To obtain an orphan designation, sponsors must submit an application to the Office of Orphan
         Products Development that contains details on the rare disease for which the drug will be
         investigated, the specific indication for the drug, a description of the drug, documentation of
         disease prevalence, and the regulatory and marketing status and history of the product.
         Although the Office’s policy is that it will try to respond within 60 days of receiving an
         application for orphan designation, the process may take longer if the office needs more
         information from the sponsor. After receiving the orphan designation and conducting more
         research, a sponsor may seek marketing approval if the drug proves safe and effective in
         clinical trials. The office plays no formal role in the decision to approve a drug; CDER and
         CBER have this responsibility.

         In 1992 FDA issued its final regulations establishing standards and procedures for granting
         orphan status and articulating the Agency’s commitment “to protect the incentives of the
         Orphan Drug Act without allowing their abuse.”3 The final rule recognizes exclusive marketing
         rights as the major incentive in the Orphan Drug Act and explains the criteria a sponsor must
         meet to prove clinical superiority and enter the market when another product that is the same
         already has marketing exclusivity.4

         Approximately 20 million Americans suffer from rare diseases, which number about 6,000 and
         include many genetic disorders as well as cancers. The prevalence of these diseases in the
         United States varies greatly, from as few as 300 for a rare enzyme deficiency to just under
         200,000 for cancer of the thyroid gland.



METHODOLOGY

         We reviewed a database from FDA that contains information on all designations and approvals
         from 1983 to 2000. We interviewed regulatory affairs staff and other representatives from a
         purposeful sample of 36 biotechnology and pharmaceutical companies. We focused on
         companies that received multiple orphan designations. We also interviewed representatives
         from 37 patient advocacy groups, stratified into two groups--those for which orphan products
         were in development or on the market and those for which no orphan products were in
         development or on the market. We conducted a


         3
          Orphan Drug Regulations (57 FR 62076), December 29, 1992 and 21 CFR Part 316 et seq.

         4
           The FDA defined three criteria for establishing clinical superiority. The new drug must be (1) more
effective than an approved orphan drug, (2) safer than an approved orphan drug, or (3) in the absence of greater
effectiveness or safety, the new drug must make a major contribution to patient care.

The Orphan Drug Act - Implementation and Impact            5                                  OEI-09-00-00380
         focus group with FDA staff and consulted with drug policy experts and representatives from
         trade groups. We also reviewed relevant literature.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




The Orphan Drug Act - Implementation and Impact   6                         OEI-09-00-00380
                                             FINDINGS

  The Orphan Drug Act’s incentives and the Office of Orphan
  Products Development’s clinical superiority criteria motivate
  companies to develop orphan products
                According to FDA, the Orphan Drug Act has unquestionably stimulated the development of
                drugs for rare diseases. A handful of such drugs were available before 1983, but since
                enactment of the law the Office of Orphan Products Development has designated
                approximately 1,000 orphan products; over 200 of these subsequently received marketing
                approval (see Chart 1). Many orphan drugs, including those approved for multiple sclerosis,
                cystic fibrosis, and hemophilia, are considered breakthroughs.


                                                      Chart 1

                                      Total Orphan Designations and Approvals

       100
        90
        80
                                                                            Designations=1063
        70
        60
        50
        40
        30
        20                                                                  Approvals = 218

        10
            0
                1983 1984 1985 1986 1987 1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000

Approvals         2    3    7    6     9    11      12   12       12   13      13    11       11   23   19     20    20   14
Designations      1   41   48    33   59    73      75   89       80   56      65    58       56   60   55     67    79   68




                “Orphan designations” are for products that FDA has determined could be used to treat a rare
                disease (i.e., a condition affecting fewer than 200,000 individuals in the United States).
                “Orphan approvals” are for products that FDA has determined are ready for marketing in the
                United States.




  The Orphan Drug Act - Implementation and Impact             7                                    OEI-09-00-00380
         The Orphan Drug Act has proven particularly helpful to the biotechnology industry that
         emerged in the years following passage (see Chart 2).5 Biotechnology involves the use of
         proteins, enzymes, antibodies, and other substances to treat diseases. This young, volatile
         industry is heavily dependent on private capital to fund research and development. The
         prospect of marketing exclusivity under the Orphan Drug Act helps biotechnology companies
         attract venture capital to support the lengthy and expensive drug development process that is


                                                  Chart 2

                                    Growth in Biologic Orphan Products 

                                   Mirrors Biotechnology Industry Growth

50%



40%



30%



20%



10%



 0%
       1983 1984 1985 1986 1987 1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000

        Proportion of Designations            Proportion of Market Approvals         Industry Growth Trendline



         estimated to take 14 years at a cost of $300 to $500 million.

Marketing exclusivity remains the most important incentive

         Marketing exclusivity, effective on the date of marketing approval, remains the most powerful
         incentive in the Orphan Drug Act, because it limits competition by prohibiting FDA from
         approving another version of the same orphan drug for the same indication unless the new drug
         is clinically superior. Other incentives, including tax credits and the waiver of user fees, are not
         nearly as critical as the prospect of marketing exclusivity, which is especially important to small
         companies trying to raise public and private capital. The lack of exclusivity, however, does not
         prevent companies from entering the market through conventional means. For example, we
         interviewed one sponsor that failed to obtain orphan designation but subsequently obtained
         marketing approval for its product, which is under patent. Two other sponsors failed to obtain


         5
          The biotechnology industry’s annual growth was measured using the Fidelity Select Biotechnology Fund
data for 1986 to 2000.

The Orphan Drug Act - Implementation and Impact          8                               OEI-09-00-00380
         orphan designations but pursued or plan to pursue marketing approval; one sponsor’s product
         is currently on the market, and the other sponsor has begun the clinical testing process.

The Office of Orphan Products Development uses clinical superiority criteria to
preserve marketing exclusivity

         The Office of Orphan Products Development uses the clinical superiority criteria articulated in
         1992 to preserve marketing exclusivity while allowing improved products to go to market. The
         market for most orphan products is not highly competitive, and, consequently, challenges to
         FDA’s decisions regarding clinical superiority are rare. In 2000, one company challenged the
         Agency’s decision to block its product for the treatment of multiple sclerosis from the U.S.
         market. The FDA allowed another company to market its treatment for the same disease
         because it had decided that it was clinically superior to an existing product already on the
         market. After congressional hearings on an amendment that would change the terms of market
         exclusivity, FDA submitted written testimony stating that the proposal would weaken the
         incentive to develop orphan products. The FDA reiterated its commitment to preserving the
         value of the key incentive in the orphan drug legislation.



Advocates report that orphan products are usually
accessible to patients
         Most patient groups reported no problems with access to orphan products. Although the drugs
         can be very costly, price alone has not prevented patients from obtaining them. Supplies may
         be limited and, on occasion, a patient’s regimen must be altered in response to the shortage.

Shortages rarely occur

         While the Office of Orphan Products Development has the authority to revoke marketing
         exclusivity if sponsors fail to produce sufficient quantities of their products, this has never
         happened. The office would be reluctant to revoke exclusivity, because alternative suppliers
         are not usually available. Orphan sponsors with exclusive marketing rights can give FDA the
         authority to approve competing products during the exclusivity period in the event of shortages.
         In fact, we interviewed one company that notified FDA of its willingness to forfeit exclusivity
         when its product was in short supply.

         We found isolated instances of shortages. In February 2001, FDA reported that one orphan
         product, Depocyt, was in “limited distribution” due to “manufacturing difficulties.”6 Depocyt’s
         orphan designation is for the treatment of lymphomatous




         6
          Source: www.fda.gov/cder/drug/shortages.

The Orphan Drug Act - Implementation and Impact      9                        OEI-09-00-00380
         meningitis. Two patient groups that we interviewed reported a total of four orphan products
         currently in short supply. The products are used to treat emphysema in alpha1-antitrypsin
         deficient patients and hemophilia. Blood-derived and recombinant products, in particular, can
         be especially vulnerable to supply problems. Shortages of these drugs could result in the need
         to adjust a patient’s regimen or postpone a surgical procedure until the shortage is remedied.

Patients have access to even the costliest orphan products

         In passing the orphan drug legislation, Congress concluded that the benefits of access to new
         treatments outweighed the costs of granting a monopoly in the form of marketing exclusivity to
         the sponsor of an approved orphan drug. Over the years, some orphan drugs have aroused
         concern and sparked debate because of their prices. These drugs include some versions of
         human growth hormone, which can cost up to $100,000 per year, and Alglucerase, the
         treatment for Gaucher’s disease (an enzyme deficiency), which can cost more than $300,000
         per year. Although Congress has considered changes in the legislation because of the windfall
         profits of a few companies, none has passed. In many respects, the prices of orphan drugs are
         similar to those for comparable non-orphan drugs and, without insurance, no one could afford
         the costliest ones. Patients usually rely on private insurance, Medicare, and/or Medicaid to pay
         for their treatments.

         Both companies and advocates told us that some companies offer patient assistance programs
         to improve access to their products. Companies may discount their products or offer them at
         no cost. In general, companies target the neediest populations and determine patients’ eligibility
         for their programs based on annual income. Approximately three out of four companies that we
         contacted reported that they offer the programs or plan to offer them if FDA approves their
         orphan products. Patients may contact the companies or the National Organization for Rare
         Disorders (NORD), which administers some of the programs and refers patients to a variety of
         services. Additionally, the Pharmaceutical and Research Manufacturers of America sponsors
         RxHope.com, a Web-based program that helps patients obtain a variety of orphan and
         common drugs.



The Office of Orphan Products Development provides a
valuable service to both companies and patients
         Orphan product sponsors report an excellent relationship with the Office of Orphan Products
         Development. Most of the sponsors we interviewed had positive comments and few reported
         difficulties. However, several sponsors reported that the Office took a long time to review their
         applications for designation. Timely designations are critical to sponsors seeking to use tax
         credits, since the credit takes effect from the date the product is designated. Throughout the
         years, the Office of Orphan Products Development has made efforts to address companies’
         concerns, and it has significantly decreased the time it



The Orphan Drug Act - Implementation and Impact   10                           OEI-09-00-00380
         takes to designate orphan products. The average time the Office of Orphan Products
         Development takes to designate a product decreased to 160 days in 2000, down from a high
         of 267 days in 1996.7

         Sponsors understand and accept the Office of Orphan Products Development’s limited role
         during the review process, and some applaud its efforts to provide assistance even after their
         products receive designation. Sponsors complained that FDA’s reviewing divisions (CDER
         and CBER) took too long to complete the safety and efficacy reviews. Sponsors also noted
         that for very rare conditions, they cannot conduct the clinical trials that FDA requires. Most
         acknowledged, however, that applying a different standard for the safety and efficacy of orphan
         products could compromise public health and safety.

         The Office of Orphan Products Development compiles and disseminates important public
         information about orphan product development. Patients and sponsors benefit from disclosure
         of designation and approval information about orphan products. The Office maintains a
         database of product information on the Internet that patients use to identify new treatments
         under development and products that have been approved for their disease. The NORD uses
         the information to refer patients to drug companies researching treatments for rare conditions.
         One company told us that by publicizing the efforts of orphan sponsors, the Office of Orphan
         Products Development has created yet another incentive--the potential for positive relations
         with patients and investors.



Orphan products meet the legal prevalence limit, and most
fall well below the threshold of 200,000 patients
         Although the average patient population for designated orphan products has climbed since

         1983, it remains well below the legal limit of 200,000 people in the United States. For

         products designated in 2000, the average prevalence was approximately

         73,000 patients at the time of designation (see Chart 3, next page).





         7
         Long time frames do not necessarily indicate delays on the part of the Office of Orphan Products
Development; in some cases, the Office finds the application deficient and requests additional information from the
sponsor.

The Orphan Drug Act - Implementation and Impact          11                                  OEI-09-00-00380
                                                     Chart 3

                                           Mean Patient Population* 

                                       for Designated Orphan Products

 90000
 80000                                   (*at the time of designation)
 70000
 60000
 50000
 40000
 30000
 20000
 10000
     0
         83

               84

                     85

                           86

                                 87

                                       88

                                             89

                                                   90

                                                         91

                                                                  92

                                                                        93

                                                                              94

                                                                                     95

                                                                                           96

                                                                                                 97

                                                                                                         98

                                                                                                               99

                                                                                                                       00
      19

              19

                    19

                          19

                                19

                                      19

                                            19

                                                  19

                                                        19

                                                              19

                                                                       19

                                                                             19

                                                                                   19

                                                                                          19

                                                                                                19

                                                                                                       19

                                                                                                              19

                                                                                                                    20
                                                   Designations                   Trendline


         Sponsors applying for an orphan designation must document that the condition for which their
         product is intended affects fewer than 200,000 patients in the United States. Documenting
         patient prevalence for some very rare conditions may be a challenge. The Office of Orphan
         Products faces similar challenges when it attempts to verify the prevalence data that sponsors
         provide. Sponsors are sometimes unable to satisfy the Office of Orphan Products
         Development that the prevalence does not exceed the legal limit, and the Office denies the
         request for orphan designation. Companies can challenge the Office’s decision, but no
         company that we contacted had exercised this option.




The Orphan Drug Act - Implementation and Impact              12                                      OEI-09-00-00380
                                      CONCLUSION

         Based on our surveys of patient groups and sponsors and our review of the FDA database on
         designations and approvals, we conclude that no regulatory or legislative changes are needed at
         this time. Although, in some instances, companies have questioned the Office of Orphan
         Products Development’s decisions, they generally praised the Orphan Drug Act and its
         implementation.




The Orphan Drug Act - Implementation and Impact   13                         OEI-09-00-00380
